<html>
<title> - REAUTHORIZATION OF THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                           REAUTHORIZATION OF
                         THE NATIONAL INSTITUTE
                      OF STANDARDS AND TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2020

                               __________

                           Serial No. 116-72

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-991PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                VACANCY
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    VACANCY
STEVE COHEN, Tennessee
BILL FOSTER, Illinois
                         
                         C  O  N  T  E  N  T  S

                             March 11, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................     9

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    15


                               Witnesses:

The Honorable Walter G. Copan, Undersecretary of Commerce for 
  Standards and Technology, and Director, National Institute of 
  Standards and Technology
    Oral Statement...............................................    16
    Written Statement............................................    18

Discussion.......................................................    30

              Appendix: Answers to Post-Hearing Questions

The Honorable Walter G. Copan, Undersecretary of Commerce for 
  Standards and Technology, and Director, National Institute of 
  Standards and Technology.......................................    48

 
                           REAUTHORIZATION OF
                         THE NATIONAL INSTITUTE
                      OF STANDARDS AND TECHNOLOGY

                              ----------                              


                       WEDNESDAY, MARCH 11, 2020

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Subcommittee met, pursuant to notice, at 10:18 a.m., 
in room 2318, Rayburn House Office Building, Hon. Haley Stevens 
[Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Stevens. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time.
     Good morning, and welcome to the hearing of the 
Subcommittee on Research and Technology to explore the major 
areas of research at the National Institute of Standards and 
Technology (NIST). We are delighted to have Dr. Walter Copan 
here today, and we look forward to learning more about how 
Congress can help this agency in its mission to advance U.S. 
competitiveness. Thank you again, Dr. Copan, for joining us 
today, and we're most looking forward also to your testimony.
     As many of you know, I am a big fan of NIST. This agency 
plays a key role in promoting U.S. innovation and 
competitiveness by advancing measurement science, standards, 
and technology. Many of you have also heard of NIST's essential 
work in important industries of the future like artificial 
intelligence (AI), quantum computing, and the bioeconomy and 
its notable work to improve cybersecurity across the Nation. We 
are all indebted to NIST for their great work in these areas.
     However, the agency has played an essential role over the 
last century in dozens of activities that are sometimes less-
attention grabbing but also just as important. NIST's reference 
materials, technical standards, measurement and calibration 
services, and technical guidance help validate the safety and 
function of most of the objects around us, most of the objects 
around us, in both our homes and our businesses.
     One of the many important functions of NIST is managing 
the Hollings Manufacturing Extension Partnership or MEP 
program, which is a Federal-State-industry partnership that 
works with local manufacturing communities to strengthen U.S. 
manufacturing. The Michigan Manufacturing Technology Center, an 
MEP Center located in my district in Plymouth, Michigan, run by 
the tremendous Mike Coast, has helped its small and medium 
manufacturing clients create and retain nearly 11,000 jobs. 
This center is a national leader in helping manufacturers 
establish cybersecurity programs, which are critical for 
manufacturers to protect both their operations and the devices 
they produce.
     Another valuable manufacturing program managed by NIST is 
the Manufacturing USA program that we were able to reauthorize 
in December. And I am pleased that NIST is ready to support a 
new institute in Fiscal Year 2021. It is because of the great 
work that goes on at NIST that--and here's where we get to the 
tough part--we're disappointed by the President's destructive 
budget request, which proposes over a 30 percent cut to NIST's 
programs. So, this budget would entirely eliminate the MEP 
program--I can't even believe I'm saying these words--and 
cutoff funding for the Manufacturing USA NIIMBL institute in 
Delaware, NIIMBL, the National Institute for Innovation in 
Manufacturing Biopharmaceuticals.
     This budget is demoralizing to the dedicated public 
servants at NIST. It is harmful to our security, our health, 
and our environment, as many of the proposed cuts target these 
essential mission areas. And it is going to be crippling to 
U.S. competitiveness, as the Administration is putting on the 
line billions of dollars in economic growth for U.S. companies 
to ``save,'' quote/unquote, $316 million in a spreadsheet.
     But today, I don't want to dwell on a proposal that we 
know Congress is going to reject. This is what our role is here 
today. Today, I would like this Committee to focus on improving 
NIST and getting the agency the tools it needs to do better to 
do its job. For example, NIST has aging buildings on its 
campuses in Maryland and Colorado and faces a substantial 
backlog in construction and maintenance. We should discuss how 
to fix these issues so the scientists and engineers who work at 
NIST have modern and safe laboratories and equipment to do 
their important work.
     In April 2019, NIST released a green paper about how to 
enhance return on investment for Federal science agencies by 
increasing technology transfer. This is such a great report by 
the way, and so we look forward to hearing NIST's other 
recommendations on how to enhance these efforts.
     I couldn't think of a better partner in today's hearing 
than my colleague Dr. Jim Baird. I want to thank Dr. Copan 
again for being here.
     [The statement of Chairwoman Stevens follows:]

    Good morning and welcome to this hearing of the 
Subcommittee on Research and Technology to explore the major 
areas of research at the National Institute of Standards and 
Technology. We look forward to learning more about how Congress 
can help the agency in its mission to advance U.S. 
competitiveness. A special welcome to our distinguished 
witness, the Honorable Dr. Walter Copan, for joining us here 
today. I'm looking forward to hearing your testimony.
    As many of you may know, I am a big fan of NIST. This small 
agency plays a key role in promoting U.S. innovation and 
competitiveness by advancing measurement science, standards, 
and technology.
    Many of you may have heard of NIST's essential work in 
important industries of the future, like artificial 
intelligence, quantum computing, and the bioeconomy, or its 
notable work to improve cybersecurity across the nation.
    However, the agency has played an essential role over the 
last century in dozens of activities that are less-attention 
grabbing but just as important. NIST's reference materials, 
technical standards, measurement and calibration services, and 
technical guidance help validate the safety and function of 
most of the objects around us, in both our homes and 
businesses.
    One of the many important functions of NIST is managing the 
Hollings Manufacturing Extension Partnership or MEP program, 
which is a federal-state-industry partnership that works with 
local manufacturing communities to strengthen U.S. 
manufacturing.
    The Michigan Manufacturing Technology Center, an MEP center 
in my district, has helped its small and medium manufacturing 
clients create and retain nearly 11,000 jobs. The Center is a 
national leader in helping manufacturers establish 
cybersecurity programs, which are critical for manufacturers to 
protect both their operations and the devices they produce.
    Another valuable manufacturing program managed by NIST is 
the Manufacturing USA program that we were able to reauthorize 
in December. I am pleased that NIST is ready to support a new 
institute in FY 2021.
    It is because of the great work that goes on at NIST that I 
am deeply disappointed by the President's destructive budget 
request, which proposes over a 30 percent cut to NIST's 
programs.
    The budget would entirely eliminate the MEP program and cut 
off funding for the Manufacturing USA NIIMBL institute in 
Delaware.
    This budget is demoralizing to the dedicated public 
servants at NIST. It is harmful to our security, our health, 
and our environment, as many of the proposed cuts target these 
essential mission areas. And it is crippling to U.S. 
competitiveness, as the Administration is putting on the line 
billions of dollars in economic growth for U.S. companies to 
``save'' $316 million in a spread sheet.
    But today, I do not want to dwell on a proposal that is my 
hope this Congress will reject. Today, I would like this 
Committee to focus on improving NIST and getting the agency the 
tools that it needs to better do its job.
    For example, NIST has aging buildings on its campuses in 
Maryland and Colorado and faces a substantial backlog in 
construction and maintenance. We should discuss how to fix 
these issues so the scientists and engineers that work at NIST 
have modern and safe laboratories and equipment to do their 
important work.
    Furthermore, in April 2019, NIST released a green paper 
about how to enhance return on investment for federal science 
agencies by increasing technology transfer. I look forward to 
hearing about these and other recommendations to enhance NIST's 
work.
    I want to again thank Dr. Copan for being here today to 
discuss NIST's role and in what areas Congress can help NIST 
build on its incredible work.

     Chairwoman Stevens. And at this time the Chair would like 
to recognize Mr. Baird for an opening statement.
     Mr. Baird. Well, good morning, Chairwoman Stevens. And I 
appreciate the opportunity to be here with you. I do appreciate 
you convening today's hearing and let us examine some of these 
major research activities that you mentioned that are supported 
by the National Institute of Standards and Technology, better 
known as NIST, in order to inform this Committee's 
reauthorization of the institute.
     I would also like to thank Dr. Copan for making the time 
and being here with us this morning, so thank you. I'm looking 
forward to hearing your testimony.
     Since 1901, NIST has been at the forefront of setting the 
standards for weights and measures for the United States and 
for the world really because of the quality of the product, so 
almost every Federal agency and U.S. industry sector uses the 
standards. They use the measurements and the certification 
services that NIST labs provide.
     As these new technologies develop and evolve, then NIST 
provides the services that are extremely critical for the 
growth and development of those industries. NIST plays a key 
role in the development of the industries of the future, 
including artificial intelligence, 5G networks, quantum 
computing, and advanced manufacturing. In the last year, NIST 
has been a key contributor to developing a national strategy 
for AI, participating in interagency coordination and building 
the foundation for trustworthy AI systems. As global 
competition grows, it is essential that the United States 
invest in the research and development (R&D) programs that 
focus on these critical technologies.
     I was pleased to see that the President's budget request 
prioritizes investments in these key areas, including nearly 
doubling NIST's investments in AI. These investments will 
launch discoveries and advances that will significantly affect 
America's economy in the coming decades. I look forward to 
hearing more about them today.
     I am proud to have recently introduced H.R. 6145, the 
Industries of the Future Act. And I've joined with 
Representative Foster, Ranking Member Lucas, and Chairwoman 
Stevens on that bill. H.R. 6145 would require the executive 
branch, including NIST, to develop a plan to double the 
baseline investments in industries of the future by 2022. It 
would also require a plan to increase civilian spending on 
future industries to $10 billion by fiscal year 2025.
     Our country needs to make the necessary investments in 
industries like AI, quantum, advanced manufacturing so our 
workers can continue to lead in the jobs of the future. In 
January, I cosponsored H.R. 5685, the Securing American 
Leadership in Science and Technology Act, which provides a 
long-term strategy for investment in basic research to combat 
threats to American competitiveness. H.R. 5685 authorizes a 
doubling of the fundamental research activities supported 
through NIST's labs over the next 10 years to drive the next 
generation of technological breakthroughs. It provides NIST 
with the mechanisms to address its crippling facilities 
maintenance backlog and provides funding for the infrastructure 
needed to conduct cutting-edge science.
     Lastly, it capitalizes on the great work that NIST did in 
developing a Return on Investment Green Paper that the 
Chairlady referred to and provides some technology transfer 
reform in order to enhance our Nation's return on investment of 
federally funded research.
     It is my hope that this Committee moves forward in 
considering a reauthorization of NIST, and it will take some 
time to consider the proposals included in H.R. 5685 and H.R. 
6145. This Committee has a long history of supporting NIST's 
work, and I believe there are many provisions that can have 
bipartisan support within this Committee.
     I again would like to thank you, Dr. Copan, for being here 
this morning, and I yield back the balance of my time.
     [The statement of Mr. Baird follows:]

    Good morning Chairwoman Stevens. Thank you for convening 
today's hearing to examine the major research activities being 
supported by the National Institute of Standards and Technology 
(NIST) in order to inform this Committee's reauthorization of 
the Institute.
    I would also like to thank Director Copan for being here 
this morning. I am looking forward to hearing your testimony.
    Since 1901, NIST has been at the forefront of setting the 
standards of weight and measures for the United States, and the 
world. Almost every federal agency and U.S. industry sector 
uses the standards, measurements, and certification services 
that NIST labs provide. This work is fundamental to our economy 
and national security.
    As new technologies develop and evolve, NIST's services are 
critical. NIST plays a key role in the development of the 
industries of the future, including Artificial Intelligence, 5-
G networks, quantum computing, and advanced manufacturing. In 
the last year, NIST has been a key contributor in developing a 
national strategy for AI, participating in interagency 
coordination and building the foundation for trustworthy AI 
systems. As global competition grows, it is essential that the 
U.S. invest in the research and development programs that focus 
on these critical technologies.
    I was pleased to see that the President's budget request 
prioritizes investments in these key areas, including nearly 
doubling NIST's investments in AI. These investments will 
launch discoveries and advances that will significantly affect 
America's economy in the coming decades. I look forward to 
hearing more about them today.
    I am proud to have recently introduced H.R. 6145, the 
Industries of the Future Act with Representative Foster, 
Ranking Member Lucas, and Chairwoman Stevens. H.R. 6145 would 
require the executive branch, including NIST, to develop a plan 
to double the baseline investments in industries of the future 
by 2022. It would also require a plan to increase civilian 
spending on future industries to $10 billion by fiscal year 
2025.
    Our country needs to make the necessary investments in 
industries like AI, quantum, advanced manufacturing so our 
workers can continue to lead in the jobs of the future.
    In January, I cosponsored H.R. 5685, the Securing American 
Leadership in Science and Technology Act, which provides a 
long-term strategy for investment in basic research to combat 
threats to American competitiveness. H.R. 5685 authorizes a 
doubling of fundamental research activities supported through 
NIST's labs over the next ten years, to drive the next 
generation of technological breakthroughs. It provides NIST 
with the mechanisms to address its crippling facilities 
maintenance backlog and provides funding for the infrastructure 
needed to conduct cutting-edge science. Lastly, it capitalizes 
on the great work that NIST did in developing a Return on 
Investment Green Paper and provides some technology transfer 
reform in order to enhance our nation's return on investment of 
federally funded research.
    It is my hope that as this Committee moves forward in 
considering a reauthorization of NIST, it will take some time 
to consider the proposals included in both H.R. 5685 and H.R. 
6145. This Committee has a long history of supporting NIST's 
work and I believe there are many provisions that can have 
bipartisan support within this Committee.
    I again would like to thank you, Dr. Copan, for being here 
this morning and I yield back the balance of my time.

     Chairwoman Stevens. The Chair now recognizes the 
Chairwoman of the Full Committee on Science, Space, and 
Technology, Chairwoman Johnson, for an opening statement.
     Chairwoman Johnson. Thank you very much, Chairwoman 
Stevens and Ranking Member Baird, for holding this morning's 
hearing to inform our reauthorization of the National Institute 
of Standards and Technology, and I want to welcome and thank 
Dr. Copan for his testimony.
     We recognize it can be challenging for the heads of our 
Nation's great science agencies to come before Congress to 
defend indefensible budgets. The purpose of this hearing is not 
to dissect the Administration's myopic and harmful budget 
request for NIST. Rather, it is to highlight the critical work 
of NIST to advance our Nation's economic competitiveness, 
national security, and wellbeing.
     The National Institute of Standards and Technology plays a 
critical role across so many aspects of our economy and 
society. Many of the efforts that this budget seeks to reduce 
or eliminate are activities that our constituents have never 
heard of but that are essential nonetheless. This includes 
everything from improving the reliability of forensic evidence 
used to prosecute dangerous criminals, to ensuring our 
healthcare providers have accurate information about our DNA 
(deoxyribonucleic acid) when giving us life-and-death medical 
advice, to protecting factory floor workers from malfunctioning 
equipment. NIST's support for research and standards for 
disaster resilience also helps protect communities across the 
Nation.
     Through its Urban Dome program, the agency is developing 
methods to reliably measure greenhouse gas emissions so we can 
develop smart climate mitigation strategies. I am sure many of 
you have heard of NIST's work in artificial intelligence and 
cybersecurity. NIST also does important work to develop digital 
identity management systems, protect voting machines, enable 
the deployment of smart electricity grids, and secure our 
manufacturing supply chains.
     One of the important programs that I want to highlight is 
NIST's work operating the National Advanced Spectrum and 
Communications Test Network, or NASCTN. For the last few years, 
this Committee has been conducting oversight of FCC (Federal 
Communications Commission) plans for the 24 gigahertz band that 
could degrade the accuracy of weather forecasting. The dispute 
between NOAA (National Oceanic and Atmospheric Administration), 
NASA (National Aeronautics and Space Administration) and the 
FCC is largely due to disagreement over the methodologies of 
competing studies. It is my belief that NIST, with its 
reputation for neutrality and scientific rigor, could use 
NASCTN to help other government agencies better understand 
spectrum interference.
     Finally, I echo the comments of my colleagues that NIST 
cannot be expected to carry out any of this work in decades-old 
facilities, some of which are unsafe, none of which are worthy 
of the world-class scientists who populate them. It speaks to 
their dedication to the mission of NIST that these scientists 
remain at the agency instead of moving to modern labs and 
higher salaries in industry.
     I want to express my gratitude to all of NIST's employees 
and Dr. Copan, whose leadership has helped to prop up the 
agency morale through challenging times.
     As this Committee considers a reauthorization for NIST, we 
must ensure that the understandable excitement around 
industries of the future does not overshadow all of the other 
important work going on at NIST and the critical facilities 
that enable that work.
     In closing, I want to thank you, Dr. Copan, once again, 
and I look forward to the discussion. Thank you.
     [The statement of Chairwoman Johnson follows:]

    Thank you Chairwoman Stevens and Ranking Member Baird for 
holding this morning's hearing to inform our reauthorization of 
the National Institute of Standards and Technology. I want to 
welcome and thank Dr. Copan for his testimony. We recognize 
that it can be challenging for the heads of our nation's great 
science agencies to come before Congress to defend indefensible 
budgets. The purpose of this hearing is not to dissect the 
Administration's myopic and harmful budget request for NIST. 
Rather, it is to highlight the critical work of NIST to advance 
our nation's economic competitiveness, national security, and 
wellbeing.
    The National Institute of Standards and Technology plays a 
critical role across so many aspects of our economy and 
society. Many of the efforts that this budget seeks to reduce 
or eliminate are activities that our constituents have never 
heard of, but that are essential nonetheless.
    This includes everything from improving the reliability of 
forensic evidence used to prosecute dangerous criminals, to 
ensuring our health care providers have accurate information 
about our DNA when giving us life and death medical advice, to 
protecting factory floor workers from malfunctioning equipment.
    NIST's support for research and standards for disaster 
resilience also helps protect communities across the 
nation.Through its Urban Dome program, the agency is developing 
methods to reliably measure greenhouse gas emissions so we can 
develop smart climate mitigation strategies.
    I am sure many of you have heard of NIST's work in 
artificial intelligence and cybersecurity. NIST also does 
important work to develop digital identity management systems, 
protect voting machines, enable the deployment of smart 
electricity grids, and secure our manufacturing supply chains.
    One of the important programs that I want to highlight is 
NIST's work operating the National Advanced Spectrum and 
Communications Test Network. For the last few years, this 
Committee has been conducting oversight of FCC plans for the 24 
Gigahertz band that could degrade the accuracy of weather 
forecasting.
    The dispute between NOAA, NASA, and FCC is largely due to 
disagreement over the methodologies of competing studies. It is 
my belief that NIST, with its reputation for neutrality and 
scientific rigor, could use NASTCN to help other government 
agencies better understand spectrum interference.
    Finally, I echo the comments of my colleagues that NIST 
cannot be expected to carry out any of this work in decades-old 
facilities, some of which are unsafe, none of which are worthy 
of the world class scientists who populate them. It speaks to 
their dedication to the mission of NIST that these scientists 
remain at the agency instead of moving to the modern labs and 
higher salaries in industry.
    I want to express my gratitude to all of NIST's employees 
and to Dr. Copan, whose leadership has helped to prop up agency 
morale through challenging times.
    As this Committee considers a reauthorization for NIST, we 
must ensure that the understandable excitement around 
industries of the future does not overshadow all of the other 
important work going on at NIST and the critical facilities 
that enable that work. In closing, I want to thank Dr. Copan 
once again and I look forward to the discussion.

     Chairwoman Stevens. And at this time I now recognize 
Ranking Member Lucas for an opening statement.
     Mr. Lucas. Thank you, Chairwoman Stevens and Ranking 
Member Baird, for holding today's hearing on reauthorizing the 
National Institute of Standards and Technology, or NIST as we 
all know it. American businesses and consumers depend on the 
work done by NIST, and I appreciate that Dr. Copan is here 
today to give us a greater insight into that.
     NIST is unusual in that it doesn't have the same name 
recognition of bigger government agencies, and yet its work 
touches the lives of every American, every day. Standardized, 
accurate, trustworthy weights and measurements are critical to 
everything from medical tests to accurate GPS (Global 
Positioning System) directions and from auto manufacturing to 
cybersecurity. They impact roughly half of the U.S. GNP (gross 
national product). Essentially, NIST's work is the foundation 
on which U.S. competitiveness grows.
     NIST's core measurement science programs aid American 
businesses in overcoming technical obstacles, fulfilling an 
essential role that companies cannot do themselves. For 
example, they provide calibrations and standards for industry 
broadly from oil and gas to agriculture, aerospace, medicine. 
That's why this Committee has a long history of bipartisan 
support for NIST. And it's why I'm hopeful that we can work 
together on legislation that will give NIST the resources it 
needs to support our continued economic growth.
     For America to compete globally, we not only need to do 
effective and be efficient in our current industries, we also 
need to lead the way to emerging technologies and industries of 
the future. China has made it an explicit goal to surpass the 
United States and become the world leader in critical 
technologies like quantum information science, artificial 
intelligence, advanced manufacturing. By investing in our STEM 
(science, technology, engineering, and math) workforce, world-
class facilities, and the research needed to develop state-of-
the-art technologies, we'll secure our R&D and drive progress. 
NIST is critical to U.S. leadership in AI, quantum 
technologies, and other emerging technologies.
     In January I introduced the Securing American Leadership 
in Science and Technology Act to address the challenges to 
American competitiveness. It will double funding for basic 
research over the next 10 years, which includes doubling 
funding for NIST labs. It provides infrastructure updates and 
prioritizes research in industries of the future.
     As critical technologies are developing for global 
deployment, it is critical that the United States and its 
allies continue to shape standards that underpin the 
technologies themselves and the future international governance 
of these technologies for generations to come. NIST plays an 
important role in this arena by developing and disseminating 
the standards that allow technology to work seamlessly and 
businesses to operate smoothly. My legislation also takes steps 
to improve how NIST engages in international standards 
development.
     As the reauthorization of NIST is considered by this 
Committee, I hope we can work together to address these issues. 
And I want to again thank Chairwoman Stevens and Ranking Member 
Baird for holding today's hearing.
     And thank you, Dr. Copan, for your leadership of NIST and 
for your testimony today. And with that, I yield back the 
balance of my time, Madam Chair.
     [The statement of Mr. Lucas follows:]

    Thank you, Chairwoman Stevens and Ranking Member Baird for 
holding today's hearing on reauthorizing the National Institute 
of Standards and Technology, or NIST. American businesses and 
consumers depend on the work done by NIST, and I appreciate 
that Dr. Copan is here today to give us greater insight into 
that.
    NIST is unusual in that it doesn't have the same name 
recognition of bigger government agencies, and yet its work 
touches the lives of every American, every day. Standardized, 
accurate, and trustworthy weights and measurements are crucial 
to everything from medical tests to accurate GPS directions and 
from auto manufacturing to cybersecurity. They impact roughly 
half of U.S. GDP. Essentially, NIST's work is the foundation on 
which U.S. competitiveness grows.
    NIST's core measurement science programs aid American 
businesses in overcoming technical obstacles, fulfilling an 
essential role that companies cannot do themselves. For 
example, they provide calibrations and standards for industry 
broadly--from oil and agriculture to aerospace and medicine.
    That's why this Committee has a long history of bipartisan 
support for NIST. And it's why I'm hopeful that we can work 
together on legislation that will give NIST the resources it 
needs to support our continued economic growth.
    For America to compete globally, we not only need to be 
effective and efficient in our current industries, but we also 
need to lead the way in emerging technologies and industries of 
the future. China has made it an explicit goal to surpass the 
U.S. and become the world leader in critical technologies like 
quantum information science, artificial intelligence, and 
advanced manufacturing. By investing in our STEM workforce, 
world-class facilities, and the research needed to develop 
state-of-the-art technologies, we'll secure our R&D and drive 
progress. NIST is critical to U.S. leadership in AI, quantum 
technologies, and other emerging technologies.
    In January I introduced the Securing American Leadership in 
Science and Technology Act to address challenges to American 
competitiveness. It will double funding for basic research over 
the next 10 years, which includes doubling funding for NIST 
labs. It provides infrastructure updates and prioritizes 
research in industries of the future.
    As critical technologies are developed for global 
deployment, it is critical that the United States and its 
allies continue to shape standards that underpin the 
technologies themselves, and the future international 
governance of these technologies for generations to come. NIST 
plays an important role in this arena by developing and 
disseminating the standards that allow technology to work 
seamlessly and businesses to operate smoothly. My legislation 
also takes steps to improve how NIST engages in international 
standards development.
    As the reauthorization of NIST is considered by this 
Committee, I hope we can work together to address these issues. 
I want to again thank Chairwoman Stevens and Ranking Member 
Baird for holding today's hearing.
    And thank you Dr. Copan for your leadership of NIST and for 
your testimony today. I yield back the balance of my time.

     Chairwoman Stevens. Thank you. If there are Members who 
wish to submit additional opening statements, your statements 
will be added to the record at this point.
     And at this time I'd like to introduce our witness. Dr. 
Walter Copan is the Under Secretary of Commerce for Standards 
and Technology and the Director of the National Institute of 
Standards and Technology, NIST, arguably, the coolest job in 
the beltway, positions he has held since 2017 by the way. So, 
as NIST Director, Dr. Copan provides high-level oversight and 
direction for the agency.
     Prior to joining NIST, Dr. Copan founded and served in 
leadership positions for several innovation and technology 
transfer organizations and companies. Dr. Copan was formerly a 
managing Director of Technology Commercialization and 
partnerships at the Department of Energy's (DOE) Brookhaven 
National Laboratory and Principal Licensing Executive for 
Technology Transfer at DOE's National Renewable Energy 
Laboratory. Dr. Copan earned dual B.S./B.A. degrees in 
chemistry and music, and his Ph.D. is in physical chemistry, 
all from Case Western Reserve University.
     Dr. Copan, you will have 5 minutes for your spoken 
testimony. Your written testimony will be included in the 
record for this hearing. And when you've completed your spoken 
testimony, we will begin questions. And, as you know, each 
member will have 5 minutes for questions. Thank you.

           TESTIMONY OF THE HONORABLE WALTER G. COPAN,

           UNDER SECRETARY OF COMMERCE FOR STANDARDS

        AND TECHNOLOGY, AND DIRECTOR, NATIONAL INSTITUTE

                   OF STANDARDS AND TECHNOLOGY

     Dr. Copan.  Chairwoman Stevens and Ranking Member Lucas, 
and Members of the Subcommittee, I am so grateful to have this 
opportunity to be with you to testify today on the programs, 
priorities, and the goals of NIST.
     NIST targets our research programs toward emerging 
technologies that will have the greatest impact in advancing 
innovation and the competitive position of the United States. 
To continue to be a bedrock of innovation, NIST must reinforce 
its core competencies and grow new capabilities year over year.
     The Administration has identified quantum information 
science, artificial intelligence, advance communications 
including 5G, advanced manufacturing, and the bioeconomy as 
domains that have potential to transform U.S. industry. These 
areas present NIST new challenges and opportunities to develop 
new measurement capabilities, technologies, tools, and 
standards to secure and protect the Nation's economic and 
national security. Today, I look forward to highlighting NIST's 
plans and accomplishments in each of these critical technology 
domains.
     NIST is a recognized world leader in the field of quantum 
science and technology, as was recognized in the National 
Quantum Initiative. The expertise of NIST scientists and the 
unique capabilities of our facilities are leveraged closely 
with partners in academia through NIST's network of joint 
institutes in Colorado and Maryland. Last year, NIST 
established the Quantum Economic Development Consortium, the 
QEDC, in partnership with SRI International. QEDC brings 
together industry to expand U.S. leadership in quantum R&D and 
the emerging quantum industry in computing, communications, and 
sensing, an important goal for NIST to develop the foundation 
for confidence and trust in artificial intelligence toward new 
research outcomes and an expanded commercial marketplace.
     Today, NIST's efforts in artificial intelligence are 
focused along three primary thrust areas: first, addressing the 
fundamental questions about the use of AI to ensure that it's 
trustworthy and explainable. Secondly, NIST is broadly engaging 
in using AI across its research portfolios in areas including 
biometrics, imaging, advanced materials discovery, smart 
manufacturing, and the design and characterization of 
engineered biological systems. Finally, we're working with 
industry, government, and academia to establish governing 
principles, standards, tools, and best practices for the 
design, construction, and use of artificial intelligence 
systems.
     NIST programs in advance communications support reliable, 
secure, high-speed wireless and wireline communications 
critical to U.S. economic competitiveness, safety, and 
security. NIST measurement science research and support for the 
development of standards accelerates the deployment of next-
generation communications technologies, including 5G. NIST is 
committed to solving the measurement and deployment challenges 
of this fast-moving field to help the United States achieve and 
maintain global leadership in these areas and to help U.S. 
industry establish manufacturing capabilities needed for 
domestic market supply.
     Our broad portfolio of activities in advance 
communications includes the National Advanced Spectrum and 
Communications Test Network, NASCTN, as mentioned by Committee 
Chairwoman Johnson, and also the Public Safety Research 
program, the PSCR (Public Safety Communications Research 
Division) program that's supported by spectrum auction funds.
     NIST measurement research in manufacturing processes, 
robotics, and advanced materials provides the foundation that 
helps the Nation's manufacturers to invent, innovate, and 
create new processes, products, and services more rapidly and 
more efficiently than our global competitors. The NIST 
laboratory programs invest heavily in support of advanced 
manufacturing, and Manufacturing USA helps U.S. industry to 
develop and implement new technologies, making them more 
competitive in the global economy. To support the U.S. 
bioeconomy, NIST is building next-generation measurement 
science capabilities and engineering biology laboratories to 
accelerate biotech innovation.
     Along with basic R&D, NIST facilitates the translation of 
technologies to scale through global standardization through 
technology transfer and industry partnerships. The 
Manufacturing USA institutes and participants benefit directly 
from this work.
     We have launched the NIST Living Measurements Systems 
Foundry to advanced U.S. synthetic and engineering biology 
efforts. The Genome in a Bottle Consortium, Gene Editing 
Consortium, and support for the regenerative medicine industry 
are examples of our important collaborative work.
     So, again, thank you for the opportunity to highlight 
these critical technologies and the role that NIST is playing 
to enhance U.S. innovation and economic competitiveness. I'm 
happy to answer any questions the Committee may have.
     And, as I close my comments right on time I'd like to 
invite this Committee to celebrate the 120th anniversary of the 
National Bureau of Standards and the National Institute of 
Standards and Technology next year, from March 3, 1901. As many 
of you know, the foundation of NIST goes back to the foundation 
of America and article I of our U.S. Constitution. And we're 
achieving a great milestone for this important, storied 
institute. Thank you for your support. Thank you.
     [The statement of Dr. Copan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Stevens. Well, at this point we're going to 
begin our first round of questions, and the Chair is going to 
recognize herself for 5 minutes and start by saying invitation 
accepted, to the chagrin of my team that likes to review those 
things and maybe to the chagrin of the future, but we're 
delighted to hear about that milestone and always eager to 
celebrate with our colleagues over at NIST and see what's 
happening.
     I think one of the most significant things about the 
agency that you run, Dr. Copan, is how much you do with how 
little, particularly as we get into sub-departments who, you 
know, maybe have $6 million for different standards programs, 
if it's election security or cybersecurity, I mean, you can run 
the gamut. And there are strategic partnerships, there's 
collaboration throughout industry, and there's this real 
commitment to almost setting the pace, right?
     And particularly as you had touched on and with your vast 
background in technology transfer, the Lab-to-Market initiative 
that NIST runs, which, again, is an initiative set forward to 
conduct tech transfer initiatives throughout the Federal 
Government, we recognize there's been some proposed cuts but 
was wondering if you could give us a little bit of an update on 
the program, talk about the budget considerations and anything 
else that you might want to share on the Lab-to-Market 
initiative.
     Dr. Copan. Thank you so much for that question and for 
your comments. The Lab-to-Market program and the Return on 
Investment initiative is a top priority for the Administration. 
It's recognized also as a CAP goal nationally, a Cross Agency 
Priority, to ensure that the United States, as it invests in 
science and technology, can create the greatest value for the 
American people, and for the American economy as a result.
     We are excited to be advancing a legislative package with 
the Department of Commerce, the Administration, and external 
stakeholders to address the issues around the Stevenson-Wydler 
Act and the Bayh-Dole Act, which are 40 years old this year. 
And important modernization to streamline U.S. innovation is 
called for in the green paper findings that were referred 
earlier in this hearing.
     The kind of reforms that are important, which we 
anticipate also working with the Committee in the 
reauthorization language for NIST, includes addressing 
regulatory impediments and implementing administrative 
improvements to enhance the agility of the Federal laboratory 
system in engaging with industry, the ability also to have 
broader rights in intellectual property protections, including 
software copyright, which is so important for the U.S. 
innovation economy in our digital age.
     Finding ways of increasing engagement with the private 
sector, more flexible tools for partnership, building a more 
entrepreneurial R&D workforce, we know that so much job 
creation in this country and globally is created by the 
entrepreneurs, of which I am a member of that cadre, providing 
more innovative tools and services to make technologies easier 
to find, to reduce the administrative burden on our 
universities and our Federal institutes through modernizing 
information technology (IT) tools and systems such as iEdison, 
which NIST has committed to work on a transition from the 
National Institutes of Health to reduce the administrative 
burden and improve the productivity of that tool's use. And 
lastly, to continue to benchmark globally to ensure that we're 
measuring the impacts of our Federal science and technology 
investment on the U.S. economy. There are many more things that 
I can cover that relate to the Return on Investment initiative, 
as well as the other implications to the NIST budget.
     Chairwoman Stevens. Yes. And does the OMB (Office of 
Management and Budget) plan to release guidance based on the 
green paper on Return on Investment? Are we waiting for them to 
give us some guidance?
     Dr. Copan. We are in the midst now of advancing the draft 
legislative proposal that this Committee will be considering, 
together with the sister Committee in the Senate, and we look 
forward to providing updates as soon as that's available.
     Chairwoman Stevens. OK. And the green paper was also 
giving NIST a singular authority to propagate the rules under 
Stevenson-Wydler. So, would this change enable NIST to 
accomplish more for the Federal R&D enterprise? Is that----
     Dr. Copan. Yes. It's been recognized actually by all of 
the Federal interagency the importance of having a coordinated 
approach, and the view that is shared across the interagency, 
including the Lab-to-Market Subcommittee of the National 
Science and Technology Council is that the role that NIST plays 
is one that's valued. It's a teambuilding approach across the 
Federal sector, which is appreciated, and it allows us to 
achieve greater harmonization in technology transfer tools, 
practices, approaches, and sharing and implementing best 
practices across the Federal interagency.
     Chairwoman Stevens. We're all about efficiency. And with 
that, my time is up, and I will go to Dr. Baird for 5 minutes 
of questioning.
     Mr. Baird. Thank you, Madam Chair.
     Dr. Copan, you mentioned in August of 2019 that the 
President named bioeconomy as an R&D priority for 2021. Could 
you elaborate on what work NIST is doing and engaged in to 
support that U.S. bioeconomy?
     Dr. Copan. Indeed. Thank you so much. The bioeconomy is 
absolutely central to the work that NIST does. It is the 
central theme of our materials measurements laboratory that 
supports underlying technologies and measurements for precision 
medicine, for medical imaging to accelerate our understanding 
in synthetic biology and genomics. NIST is also building next-
generation measurement science capabilities and engineering 
biology laboratories to accelerate responsible biotech 
innovations.
     We mentioned earlier on--and Chairwoman Johnson actually 
mentioned some of the work that NIST is doing that relates to 
forensics and DNA testing--in providing a foundation of trust 
in the analysis of DNA for a wide range of purposes, including 
to support our justice system in this Nation.
     NIST is also the sponsoring agency for the National 
Institute for Innovation in Manufacturing Biopharmaceuticals, 
or NIIMBL, with the University of Delaware. It's an institute 
that is seen as wildly successful and it has broad support from 
industry and from academia, as well as the community of donors 
that cares deeply about the future of the bioeconomy.
     And of course, as we know, NIIMBL is one of the 14 
institutes within the Manufacturing USA network that's such an 
important part of this Nation's efforts in advanced 
manufacturing, including the translation of technologies from 
the laboratory into the bioeconomy marketplace.
     Mr. Baird. Thank you. Over 1/4 of Indiana's total gross 
State product, $102 billion a year, comes from manufacturing. 
Could you tell us what NIST is doing to help these small and 
medium manufacturers like those found in my home State to adopt 
and implement these new technologies such as smart 
manufacturing systems?
     Dr. Copan. Thank you so much, Ranking Member Baird. The 
work of the Manufacturing Extension Partnership, the work of 
the Manufacturing USA institutes, and indeed the coordination 
between those advanced manufacturing programs focuses on the 
needs of U.S. small- and medium-sized manufacturers, focuses on 
the support for the entrepreneurs of America that drive so much 
translation of new technologies from the laboratory into the 
commercial marketplace, including in Indiana.
     It's so important that we look at the provision of new 
technologies through these types of programs and systems to 
enable industry, our small- and medium-size manufacturers to 
have access to techniques such as digital manufacturing, 
additive manufacturing, and focus on the quality of the 
products that come from the additive manufacturing enterprise.
     We're in the era of the digital economy, and certainly 
digital manufacturing is absolutely essential to what's 
sometimes been called industry 4.0 as we look at the 
intersection between robotics and artificial intelligence with 
the manufacturing sector. The Manufacturing Extension 
Partnership and NIST directly work closely with our Nation's 
small manufacturers, including in Indiana, to provide them 
access to these tools, capabilities, and shared services.
     And the other element that's so important is to provide 
security, cybersecurity to the small manufacturers of this 
Nation because we know that the probability of failure of those 
small enterprises if they are the victim of a cyber attack is 
very, very high indeed, as statistics show us.
     Mr. Baird. So, thank you. I've got about 29 seconds, and I 
don't know whether you want to make a comment about advanced 
manufacturing. Maybe I just share with you that I'm impressed, 
as I tour the facilities in my district, of the capabilities in 
the manufacturing. And I guess I'll just say thank you and I 
yield back.
     Dr. Copan. Thank you.
     Chairwoman Stevens. Thank you. At this time we'll 
recognize Chairwoman Johnson for 5 minutes of questions.
     Chairwoman Johnson. Thank you very much.
     Doctor, in 2019 NOAA, NASA, and the Navy all claimed that 
the FCC's plan for the 24 gigahertz band could degrade the 
accuracy of weather forecasting. The FCC denied these claims. 
Part of the reason for this was disagreement over methodologies 
of completing--competing studies that showed these results.
     NIST has a communication technology lab and operates the 
National Advanced Spectrum and Communication Testing Network. 
Is it correct that NASCTN did not do any studies about spectrum 
emissions in the 24 gigahertz band? Or how could NIST's 
spectrum studies have helped to resolve some of these 
interagency disagreements?
     Dr. Copan. Thank you so much for that question, Chairwoman 
Johnson. NASCTN as we know it, the National Advanced Spectrum 
and Communications Test Network, is a national resource to 
address questions such as the one that's been posed by our 
Federal partners in regard to the 24 gigahertz band. NIST has 
met with colleagues at NASA, colleagues at our sister agency 
NOAA, with the Department of Defense, and with other 
stakeholders to work toward outlining a definitive test program 
that could be conducted at NASCTN.
     The value that an independent test facility such as that 
provides is unbiased analysis using a test methodology that's 
broadly agreed and communicated to the entire public of 
practice that cares about these types of issues to ensure that 
the work is done in the light of day, that it's open, it's 
transparent, the results that are expected are highlighted and 
made broadly available to the community.
     So, we look forward to the work with the sister agencies 
and also with the input of the FCC as we look to the future of 
intelligent data to guide spectrum allocation decisions.
     Chairwoman Johnson. Thank you. I noticed that the 
President's fiscal year 2021 budget request called for the 
doubling of funding for artificial intelligence research at 
NIST. What are NIST's plans for this additional funding?
     Dr. Copan. As I've said I believe before this Committee in 
the past, NIST can always do more with more.
     Chairwoman Johnson. Yes.
     Dr. Copan. And it's actually wonderful that NIST has such 
a deep experience in the applications of artificial 
intelligence. It is broadly applied across all of our 
laboratories to improve the productivity of what we do.
     One very simple example is we used to have postdoctoral 
fellows and graduate students and principal investigators 
aligning by hand the laser tables that we use for the next-
generation atomic clock research. That is now done by 
artificial intelligence and machine learning protocols. It 
saves our researchers time and allows them to focus on the big 
questions.
     Artificial intelligence is clearly a strategic priority 
for us at NIST. There's much work to be done in developing 
tools to provide insights into artificial intelligence 
programs, as we've done also with facial recognition technology 
in which this Committee has had great interest. It's provided 
insight into statistical bias that comes from training sets and 
data sets that are used to establish artificial intelligence 
protocols.
     There's important work to be done in standardization so 
that the United States can lead the world in the application of 
artificial intelligence in a trustworthy and ethical manner. 
And we are at the early stages of the world focusing on the 
power of AI and also needing to understand its limitations and 
biases.
     Our goal is to ensure that we'll continue our fundamental 
research into AI systems, understand the performance of 
algorithms, providing testbeds for things that relate to the 
industrial Internet of Things, to autonomous vehicles and how 
they perform with advanced sensor systems on the roads of 
America in the future.
     We are going to continue to apply AI to our research 
programs to increase productivity of our labs, and to translate 
them, those learnings, for U.S. industry to continue to lead 
the world as we seek to capture the value of industrial 
productivity from artificial intelligence.
     Chairwoman Johnson. Thank you very much. I yield back.
     Chairwoman Stevens. And now we recognize Mr. Lucas for 5 
minutes.
     Mr. Lucas. Thank you, Madam Chair, and I appreciate the 
opportunity to visit with Dr. Copan.
     Before I ask my one question, though, I have to note 
there's been lots of discussion about the President's budget. 
And when I enthusiastically see the Majority's budget, I know a 
lot of these issues will be addressed whenever it's available. 
Whenever it's available.
     That said, let's focus for a moment on an issue that I am 
very concerned about, Doctor, and that's the moves China is 
making in the 5G wireless technology, particularly in trying to 
dominate the global market. How do you think the United States 
stands on 5G, and what do we need to do not just to compete but 
to lead in that area?
     Dr. Copan. Thank you so much, Ranking Member Lucas. That's 
a very, very important question. And we have entered in the 
United States, as we know, a hypercompetitive environment with 
China. As a lead in activities related to standardization, we 
see that in some ways the standardization process has been 
weaponized where the free market economy that is represented by 
the United States, a private-sector-led process that's 
coordinated by our sister organization the American National 
Standards Institute, ANSI, which brings together many of the 
key players in the private sector, are looking now at more 
effective coordination within the United States, looking to 
incentivize also the engagement by U.S. industry in the 
standards process. We know that these are long-term investments 
that are made by U.S. industry, as well as by the Federal 
sector led by and coordinated by NIST.
     We know that there are important rules for the 
standardization process, and we have seen that at times other 
players have bent or indeed broken the rules of fair play in 
standards. The United States needs to continue to utilize the 
standardization process to lead in the future. That includes 
more effective coordination, the use of tools so that 
standardization processes can be accelerated, and that greater 
information-sharing amongst these standards players can lead to 
more effective consensus development around the standards that 
would benefit the United States and its private-sector players, 
as well as others in the global economy.
     We want the best technologies in the world to win, and we 
want the United States to continue to be the leader in not only 
delivering those technologies but securing the intellectual 
properties behind them and translating those into market value.
     The work that NIST is doing also involves a coordination 
across the Federal interagency. We have been called upon by 
this Committee and by others to continue our work to step 
forward to provide greater coordination, greater training, and 
to work collaboratively across the entire Federal interagency 
to ensure that the United States leads in standards for the 
future.
     We've already spoken briefly about artificial intelligence 
standards and the importance for the future, and NIST has 
responded to the President's executive order on maintaining 
American leadership in AI through the standards process. I 
believe that that's a very powerful document that NIST has 
developed in collaboration with participants from the private 
sector and across the Federal Government, as well as with 
academia. That same process also focuses on the United States 
being able to sit at the table in the United States and 
globally with the global standards development organizations to 
ensure that U.S. industry, U.S. Government, U.S. stakeholders 
are present at the standards negotiating tables around the 
world.
     Mr. Lucas. Thank you, Dr. Copan. And, surprisingly, Madam 
Chair, I'll yield back a little time.
     Chairwoman Stevens. And now we'll recognize Congressman 
Lipinski for 5 minutes of questioning.
     Mr. Lipinski. Thank you, Madam Chair.
     Dr. Copan, I was proud to have passed the American 
Manufacturing and Competitiveness Act in 2014 as part of a 
broader manufacturing legislation package requiring publication 
of a strategy for American leadership in advanced 
manufacturing. And I was excited to see the first strategy 
published in October of 2018. And I note that you are the Co-
Chair of the Committee on Technology that worked on that 
strategy, and I sincerely thank you for your efforts. I have to 
admit I had some concerns about what it was going to--what was 
going to wind up being in there, but you did an excellent job 
in putting this together.
     As my colleagues are well aware, I have long been 
interested in programs to encourage research coordination and 
facilitate tech transfer, so it's no surprise that I was 
particularly interested in the recommendations within the 
report, the report section entitled ``Encourage Ecosystems of 
Manufacturing Innovation.'' In response to these 
recommendations, I recently introduced H.R. 5978, the MADE HERE 
Act. This bill aims to create new regional manufacturing 
innovation clusters by bringing together educational 
institutions, private-sector companies, labor organizations, 
and government-funded entities such as the Manufacturing 
Institutes and Manufacturing Extension Partnerships.
     Through the three-phase funding model, the program would 
place an emphasis on entrepreneurial training and business plan 
formation to meet regional need. So, this is all very much in 
keeping with the recommendations of the report.
     So, Dr. Copan, can you please describe the value of 
regional entrepreneurial manufacturing cluster programs like 
the one that I described?
     Dr. Copan. Thank you so much, Congressman Lipinski, and 
thank you for your great support for America's manufacturers.
     We know that entrepreneurship drives value, and we are in 
an era of networks where bringing together the key players in 
the ecosystem is critical to establishing new or strengthening 
existing industry-driven consortia such as the Manufacturing 
USA institutes and their connections broadly with 
entrepreneurs, accessing also the capabilities of the 
Manufacturing Extension Partnership, which supports small- to 
medium-size enterprise, as well as the Nation's entrepreneurs.
     There are high-priority challenges that need to be 
addressed to grow advanced manufacturing across the United 
States. The United States needs to continue to lead the world 
in advanced manufacturing, including the applications in the 
digital economy and the bioeconomy. The value in technology-
based ecosystems facilitate interactions between manufacturers, 
leverage Federal funding much more broadly, much more 
efficiently, and promote cross-sector collaboration. These 
activities also create new important connections for the value 
of America's supply chain and for the resilience of the supply 
chain.
     That's an area that the NIST Manufacturing Extension 
Partnership has focused on greatly. In particular, as we look 
at the threat of the coronavirus, COVID-19, of which we are all 
aware. The resilience models for U.S. industry and U.S. small 
companies as well is something that's top of mind, and the 
resilience focus of NIST and the Manufacturing Extension 
Partnerships can utilize these ecosystems across our Nation to 
ensure that our supply chain and our advanced manufacturing 
programs remain strong and lead the world.
     Mr. Lipinski. Thank you. And I would appreciate--this is 
something that--the MADE HERE Act is something you could take a 
look at and perhaps the--help to build some support for this, 
and hopefully the Administration could really embrace this 
because it really is in keeping with the strategy that was--
that you had put together.
     Dr. Copan. Yes.
     Mr. Lipinski. Do you have any other thoughts to share 
about other recommendations of the--of that strategy that we 
should consider as we prepare for the NIST reauthorization?
     Dr. Copan. Thanks so much for that question. I am very 
familiar with the MADE HERE Act, and I'm delighted that NIST 
has been engaged in providing feedback. The Nation's strategic 
plan for advanced manufacturing provides us with an important 
roadmap. There are important elements for the future of 
building out a manufacturing workforce for America that is 
supported by the Manufacturing USA institutes, and we are 
collaborating much more broadly now across the Federal 
interagency to ensure that we focus on the workforce needs of 
the future. I look forward to working with you and with Members 
of this Committee to ensure that the legislation that's needed 
for the future and the robustness of U.S. manufacturing that 
will build upon the national advanced manufacturing strategy 
and the great work of the interagency program is continued.
     Mr. Lipinski. Thank you for your work, and I appreciate 
our work together and look forward to continuing to work with 
you.
     Dr. Copan. Thank you.
     Mr. Lipinski. I yield back.
     Chairwoman Stevens. All right. Congressman Balderson, 5 
minutes of questioning.
     Mr. Balderson. Thank you very much, Madam Chair Stevens. 
Dr. Copan, good to see you, sir.
     I was proud to be an original cosponsor of Chairwoman 
Stevens' bill, the American Manufacturing Leadership Act, which 
passed the House in July of last year. This bill would 
strengthen our Nation's largest investment in advanced 
manufacturing, the Manufacturing USA program. I am pleased to 
see that in the President's budget request the Manufacturing 
USA program was given a 60 percent funding increase. Could you 
speak to what new opportunities NIST could pursue with this 
increased funding for the Manufacturing USA program? And what 
could this increased funding level mean for small and midsize 
manufacturers?
     Dr. Copan. Thank you so much, Congressman Balderson. The 
advanced manufacturing focus of the budget proposal for 2021 is 
really authorizing NIST to begin the competition for a new 
advanced manufacturing institute. We are excited about that 
potential. We're also excited about the new model that NIST has 
in the reauthorization of the Manufacturing USA program because 
it provides us much greater flexibility in how we bring new 
centers and new partnerships together as part of the broader 
initiative for U.S. advanced manufacturing and Manufacturing 
USA.
     We would look specifically to begin in this fiscal year 
the competition process, which we anticipate to be a year-long 
journey to bring an open competition together that the best 
possible opportunity for a new U.S. manufacturing cluster can 
be established.
     We know that this is a highly competitive process, but 
competition is a great thing because it brings together new 
collaborators, new partners, and looking at the most important 
problems for U.S. manufacturing to be addressed. So, it's 
really looking to continue NIST's great work in coordinating of 
the interagency process, the National Science and Technology 
Council's Advanced Manufacturing Subcommittee, which NIST co-
chairs. And we're looking forward to that broad engagement in 
the process, the continuation and the increase of funding that 
allows us to do even more for America in the future.
     Mr. Balderson. Thank you for that answer. My follow-up 
question would be--and you spoke a little bit about the 
competition, but given the rise of the international 
competition in the field of advanced manufacturing, what could 
it mean for the United States if another country were to gain 
dominance in these techniques?
     Dr. Copan. We know that the rest of the world is watching 
what we do and in many cases are emulating what we do in the 
United States. Having recently visited in Brazil for the Joint 
Commission on Science and Technology cooperation between the 
United States and Brazil, it's very clear that there's been 
close collaborative efforts between the economies of the United 
States and Brazil in imagining what the advanced manufacturing 
systems of our respective nations will look like. We'll 
continue to benchmark globally to ensure that the United States 
continues to have the information that we need to build the 
advanced manufacturing infrastructure of the future.
     Very clearly, we're pleased at the opportunity to increase 
funding in these areas, but we know that there are commitments 
that have been made, for example, by China as part of their 
Made in China 2025 program that calls for the buildout of 40 
advanced manufacturing institutes. And this in itself provides 
us an opportunity to see what China is doing. They have in many 
cases duplicated the types of institutes that we have in the 
United States, including the same names for the institutes. And 
it's been something that we are keeping our finger on the 
pulse.
     We do know that our sustained investment for this Nation, 
as well as utilizing American creativity to ensure that we're 
addressing the greatest opportunities of the industries of the 
future, recognizing that, as we make, we learn.
     We know also that measurement science is absolutely 
essential to the future of manufacturing and also that 
standardization is essential for the adoption of the new 
products that come from our advanced manufacturing programs 
across the Nation.
     Mr. Balderson. Thank you very much. Madam Chair, I yield 
back.
     Chairwoman Stevens. Thank you. I tell everyone back home 
when we got this American Manufacturing Leadership Act, 
Congressman from Ohio, Congresswoman for Michigan, it's the 
only time Michigan and Ohio have ever come together to win 
anything, but we do it for manufacturing. And that's where our 
region in the Midwest shines. And, you know, certainly 
delighted to see that, the Administration agrees with the 
investments and we want to continue to support NIST in that 
process as well. So, thank you for those thoughtful comments, 
Dr. Copan.
     And now we're going to recognize Congressman Cohen for 5 
minutes of questioning.
     Mr. Cohen. Thank you. I appreciate it, Madam Chairman.
     Dr. Copan, thank you for your testimony. In light of all 
the news around Clearview AI and its secretive facial 
recognition system, I wanted to discuss NIST's important work 
in accuracy benchmarking for facial recognition technology 
through its Face Recognition Vendor Test program. As the 
debacle around Clearview AI shows us, this technology poses 
significant societal risks, and understanding their accuracy is 
paramount.
     In its most recent test last December, NIST found vast 
differences between the accuracy of algorithms with the top 17 
performing algorithms being nearly perfect across demographics 
while the bottom-performing algorithms showed significant 
false-negative and false-positive rates.
     Doctor, what accounts for the significant differences in 
accuracy between the top-performing face recognition algorithms 
and the lowest-performing algorithms?
     Dr. Copan. Thank you so much for that question, 
Congressman Cohen. NIST is excited to provide the insights into 
the direct performance of facial recognition and other 
artificial intelligence programs, including the performance 
validation and the performance testing in an unbiased way as 
NIST does.
     Congress appreciates the work, I know, from the 
discussions that we've had in this Committee and elsewhere by 
the clear testing protocols that NIST utilizes. So often, the 
building of algorithms is enhanced or we see detriment based on 
the selection of the training sets. NIST provides the 
validation testing. And we don't give the answers to the test. 
That is, we don't allow the artificial intelligence producers 
to actually game the tests by providing them the tools to 
validate them. We do that on an independent basis. And it's a 
very important relationship of trust that NIST has with the 
community of practice in AI.
     It's important to provide ongoing reports to policymakers 
to understand the strengths and the weaknesses of various 
systems, but it's also very important feedback to industry so 
that they can develop algorithms and training sets that are 
much more robust in the future, tools that can utilize cloud-
based solutions for artificial intelligence to take advantage 
of massively parallel computing.
     And so we look forward to continue to provide unbiased 
insights into the performance of facial recognition 
technologies and are delighted to partner with Congress, as 
well as with industry to provide these insights.
     Mr. Cohen. Well, I'm not sure if I understood exactly what 
accounted for the differences in the low-and the higher-rated 
algorithms.
     Dr. Copan. Yes.
     Mr. Cohen. Did I miss that or did you miss it?
     Dr. Copan. Well, the performance is really based on the 
algorithms themselves, as well as the training sets that are 
utilized to establish the algorithms. Sometimes, the 
performance is enhanced by the actual computing architecture 
that's used, a cloud-based solution, for example. And so it 
really comes down to the--we're not the ones who actually tell 
people how to fix their problems, but we are there to advise 
when it comes to the design of their algorithms and their 
tools. But we can certainly provide insights into what's 
working well and what's not.
     Mr. Cohen. Well, is the problem--so you're saying the 
problem is in the standards that they use, it's not in the 
inability to accurately assess people based on their personal 
or similarly related characteristics?
     Dr. Copan. Yes. It really is a combination of the actual 
sort of mathematical model, the algorithm tool that's utilized, 
the training set that allows the initial performance to be 
established by the vendor, and then ultimately it's affected by 
the toolset of technology, including cloud-based solutions, 
that can give greater computing power to the decisionmaking.
     Mr. Cohen. So, do you think scientifically they can get it 
right and not have low-performing algorithms? It's just a 
matter of them getting it right?
     Dr. Copan. Indeed. It's a matter of time. This is a field 
that's emerging. Tools are being improved all the time. And now 
that the problems are more apparent to the developers, NIST 
will continue to provide testing and feedback so that industry 
can refine its tools, its systems for better performance in the 
future.
     Mr. Cohen. I yield back the balance of my time.
     Chairwoman Stevens. The Chair now recognizes Congressman 
Gonzalez for 5 minutes of questioning.
     Mr. Gonzalez. Thank you, Chairwoman Stevens and Ranking 
Member Baird. I also want to thank Dr. Copan. Thanks for coming 
back and for your testimony.
     As you know, last August NIST released a plan for 
prioritizing Federal agency engagement in the development of 
standards for AI. A few of my colleagues and I wrote a letter 
to you in December urging NIST to work collaboratively with 
industry and stakeholders in developing useful frameworks. In 
your response you mentioned NIST was considering follow-on 
workshops to bring together the government, industry, and 
academia. Just a quick status update, how are things 
progressing on the front? What next steps are imminent?
     Dr. Copan. Yes. Thanks very much. And, as you know, NIST 
works collaboratively with industry and across the Federal 
sector, with academia as well to convene the stakeholder 
community. We've held actually a series of programs and 
workshops very recently. NIST was also at the RSA conference in 
California that allowed the community of practice to talk about 
the development of tools and systems for the future. We look 
forward to continue to hold programs and workshops and also 
providing the testing tools as well on an increasingly focused 
basis. We know that this is something that NIST is called upon 
to do from the executive order, and also having a broad range 
of tools for the broad range of applications. We've spoken at 
some length now about facial recognition technologies but 
biometrics more broadly.
     Mr. Gonzalez. Yes.
     Dr. Copan. Our utilization of systems for positive 
identification and so many applications also in the biological 
laboratory and also our ability to utilize protocols such as 
machine learning to quickly identify deepfakes, which are 
becoming an increasing concern for our Nation, as we also look 
to the election process coming ahead.
     Mr. Gonzalez. Yes. Thank you. And we look forward to 
following your progress on that.
     Dr. Copan. Thanks.
     Mr. Gonzalez. Another thing that you've mentioned is the 
notion of international standards and participating in 
international standard-setting organizations. I think that's 
critical. The book Tools and Weapons by Brad Smith that came 
out recently I think frames technology well, right?
     Dr. Copan. Yes.
     Mr. Gonzalez. It's not good or bad. It's how do we apply 
it.
     Dr. Copan. Right.
     Mr. Gonzalez. And, as I look at the technologies of the 
future and the incredible powerful technologies of the future, 
I think we all know that it's incumbent that Western values, 
Western democratic values ultimately dictate the standards for 
that future.
     That being said, how have we progressed within the 
international community? What steps do we need to take, and how 
important is it that we are the dominant player economically or 
technologically in being able to set those standards or 
influence the dialog?
     Dr. Copan. Yes. Thank you so much, Congressman Gonzalez. 
It's an exciting time, as we know. Standards drive commerce and 
global trade. It's important for the United States to be at the 
leadership table. I'm delighted that the principles for 
artificial intelligence, for example, that were communicated 
through the Office of Science and Technology Policy. NIST has 
been a contributor in the development of the OECD (Organization 
for Economic Cooperation and Development) guidelines for the 
appropriate use of artificial intelligence.
     It's important for the United States to understand the 
competitive dynamic globally in which we work. It requires us 
to organize more efficiently, recognizing that we are still a 
private-sector-led standards process and that we respect the 
role of the private sector. But it's important for the 
government--in this case, the role of NIST is being called out 
time and again, that we need to stand up even more strongly as 
a close partner to industry at the standards tables. And I'm 
delighted to say that NIST is involved in standards 
organizations globally, each of the key ones. Nearly 1,500 
standards committees has representation from NIST and support 
from NIST. It represents a major investment by our community, 
and we recognize that that's something we need to continue to 
step up to to assure American leadership globally.
     Mr. Gonzalez. Great. And we look forward to continuing to 
support your work in that endeavor, critically important. And 
with that, I yield back.
     Chairwoman Stevens. At this time Congressman Foster, 5 
minutes of questions.
     Mr. Foster. Thank you, Chairwoman Stevens, Ranking Member 
Baird, and Dr. Copan for joining us today.
     Dr. Copan, I'd like to start by thanking NIST for its 
tremendous work on digital identity and to encourage you to 
expand this effort both nationally and internationally. The 
issue of digital identity and the need to reliably authenticate 
yourself online is becoming increasingly critical as more and 
more of our lives are lived online from how we purchase goods 
to how we communicate with our loved ones or how we get our 
news. And fraudulent activity in these areas from identity 
theft to inauthentic bots on social media to fraudulent 
transactions online can only be prevented by providing citizens 
who wish one with a means of privately and securely 
authenticating their identities as a specific human being.
     And the secure digital ID will also be crucial to the 
implementation of digital dollars, which is something that I 
think our country is going to have to get into to answer the 
Chinese competitive threat from digital Chinese currency.
     And, as you know, NIST published the digital identity 
guidelines in 2017. These guidelines provide technical 
requirements for Federal agencies implementing digital identity 
services. These guidelines cover identity proofing, 
authentication of users interacting with government IT systems 
over open networks. They define technical requirements each of 
the areas of identity proofing, registration, authenticators, 
management processes, authentication protocols, federation, and 
related assertions. You know, this is really high-quality work, 
and I want to thank you for it.
     Dr. Copan. Thank you.
     Mr. Foster. In addition, in 2015 NIST founded the Trusted 
Identities Group, TIG, which aims to convene, facilitate, and 
catalyze a private-sector-led implementation approach to 
advance trusted digital identity solutions built upon four 
guiding principles, which I thought were well-thought-out and 
also to enable government adoption of these by continually 
involving a risk-based guidance and to encourage adoption of 
innovative technologies in the market.
     The four principles are that identity solutions should be, 
first, privacy-enhancing and voluntary; secondly, secure and 
resilient; third, interoperable--and this is where standards 
are crucial--and fourth, cost-effective and easy to use.
     Now, my office is working on legislation to direct NIST to 
create standards for online authentication. And can you talk 
about how your digital identity guidelines might help you in 
that project?
     Dr. Copan. Thank you so much, Congressman Foster. We are 
very proud of the work indeed that NIST has done. You refer to 
also NIST's special publication 800-63, which has been updated. 
There's new information actually available online from NIST 
that provides new insights and addresses frequently asked 
questions on digital identity.
     To the point that you've made, digital identities are such 
an important component of our modern lives, and it turns out 
that they're complicated by the fact that we are multiple 
personalities online if you will. People have multiple 
identities when it comes to their email, to their online 
banking, to how they interact with social media. And these 
identities are so important to be preserved. Sometimes, it 
requires a surrendering of certain information to access 
services. And so we are very pleased at the foundational work 
that NIST has done regarding digital identities.
     The entire federation process as well that allows the 
conveyance of authentication across network systems is 
absolutely essential to get right. NIST looks forward to 
working with you and with this Committee as you seek to 
strengthen the protection of Americans' digital identities.
     And also as we look to the future, NIST's work in 
blockchain, for example, as we look to the future of 
cryptocurrencies and other----
     Mr. Foster. I very much enjoyed attending your--one of 
your blockchain-related summits.
     Dr. Copan. Yes. Yes.
     Mr. Foster. And----
     Dr. Copan. Thanks so much for your support.
     Mr. Foster. Also, I'd really like to encourage you to 
continue to work on this internationally as well. I mean, you 
know, just, for example, at the upcoming G7--I guess G6 now--
Summit there's going to be significant discussion----
     Dr. Copan. Yes.
     Mr. Foster [continuing]. Of central bank digital 
currencies, and having an international digital ID will be, you 
know, at the very heart of that discussion.
     Dr. Copan. Yes.
     Mr. Foster. And then in my last 9 seconds--maybe I'll ask 
you a question for the record having to do with the strategic 
vision for the neutron science enterprise at NIST.
     Dr. Copan. Very good. I will--I'll look forward to 
addressing any questions for the record and, if time permits in 
the testimonies today, to be able to come back to both of those 
topics. Thank you so much.
     Mr. Foster. Thank you. I yield back.
     Chairwoman Stevens. Thank you. And, Mr. Tonko, Congressman 
Tonko, recognizing you for 5 minutes of questions.
     Mr. Tonko. Thank you, Madam Chair. And welcome, Dr. Copan.
     As some may or may not know, today is International 
Plumbing Day. For decades, NIST led research efforts to inform 
the basis for U.S. plumbing structure, design, and construction 
standards. These efforts were ended in the 1970s and, as a 
result, today's plumbing standards do not fully account for 
technological advances that could enable us to meet our daily 
water needs while conserving resources and reducing utility 
bills. That is why I joined Representative Cartwright in 
cosponsoring the NIST Plumbing Research Act to reinvigorate 
these efforts.
     So, Dr. Copan, given NIST's history and its role in 
similar efforts related to energy efficiency and building 
codes, do you see a role for NIST in plumbing research? And 
what is standing in the way of NIST doing this important work?
     Dr. Copan. Yes, thank you so much, Congressman Tonko. I 
really appreciate your support and your interest in this 
important topic.
     Yes, plumbing is one of those things that is not seen as a 
glamour industry, but it's something that we rely upon for the 
quality of water that's delivered. And we know that with the 
low-flow appliances and devices that we need to take a fresh 
look at plumbing systems for the future.
     NIST has actually been meeting with the leadership of the 
industries, with the industry associations, as well as those 
who look at future building codes and standards that 
incorporate guidelines for plumbing systems. We have a plumbing 
tower that has been essentially mothballed at NIST. It's 
something that was very useful for the development of the 
previous set of guidelines.
     We've also been sharing with the plumbing and the built 
environment community some of the modern work that NIST has 
been doing as well in how we analyze flow. Some of the new 
techniques for microfluidics characterization and the work of 
our physical measurements, as well as our engineering 
laboratories is very focused on the ability to translate in the 
future some of these new technologies to help us understand and 
to do the work that's so necessary for the future of the 
plumbing industry.
     As mentioned earlier on, the appropriations that NIST 
receives, we will look forward to applying that appropriately 
to the important problems of the future, and we look forward to 
working with this Committee and appreciate your leadership in 
the legislation for the future of plumbing safety, for water 
quality in this Nation, and also to support the export markets 
of America's plumbing industry. We've seen by the work that 
NIST, ANSI has been involved in in global markets that has 
actually helped the U.S. export business for plumbing. And we 
look forward to that collaborative work that would open up the 
door to new markets for the American plumbing manufacturers.
     Mr. Tonko. Great. We think it's important to do, 
especially with this innovation economy.
     More and more Americans are living in crowded urban and 
suburban communities. Some communities are leveraging public- 
and private-sector dollars to invest in technologies to address 
challenges such as reducing traffic congestion, increasing 
efficiency of services, and fostering economic growth. I'm 
impressed by the terrific examples of smart cities in my 
district such as the city of Schenectady, a terrific example of 
what we can achieve when we use technology and data to better 
serve our communities.
     However, for many communities the risk of investment in 
smart technologies is still too great. There is still much work 
to be done to achieve greater implementation of smart city 
solutions. The Federal Government can play a role in addressing 
some of these risks, including barriers to interoperability and 
data-sharing among the different public and private 
stakeholders and between communities that are looking to 
develop smart city plans.
     NIST launched its Global City Teams Challenge in 2014 as 
an effort to encourage collaboration in standards in the 
development of smart city technologies. What is the status, 
sir, of that initiative?
     Dr. Copan. NIST is proud of the work that it's done in the 
Global Cities Challenge and smart communities directly. We have 
been doing some I think very important work also as part of our 
advanced communications efforts, the public safety 
communications program, which links together work in smart 
cities with intelligent new technologies that allow the 
creation of cost-effective solutions for industry and also for 
communities such as we've seen at the Boston Marathon.
     The challenge that was there was to deploy a low-cost 
solution that provide access to digital identification and so 
many elements of public safety. And so we look forward to 
working with you and also with this Committee toward the future 
of the smart cities program in the Nation and around the world.
     Mr. Tonko. Well, thank you. And I just hope that NIST will 
continue to contribute to the development of standards for 
smart and connected communities.
     And with that, Madam Chair, I yield back.
     Chairwoman Stevens. OK. Well, I----
     Dr. Copan. Thank you so much.
     Chairwoman Stevens. The Chair doesn't think she's ever 
heard anyone talk so eloquently about plumbing in her life, so 
hats off to the Congressman and the Under Secretary.
     Before we bring this to a close, we are going to briefly 
open up for one more question on behalf of the Chair and the 
Ranking Member that we had for you, Dr. Copan, which is that 
the budget request made pretty clear that there are maintenance 
needs of facilities on both NIST campuses. And many of the 
agency's buildings were built in the 1950s and 1960s and are 
experiencing some of the similar deterioration, as the Nation's 
other major infrastructure is as well. And so NIST has a 
deferred maintenance backlog of over $700 million.
     And, Dr. Copan, I was just--we were just wondering if you 
could speak a little bit about how this significant 
construction and maintenance backlog impacts both the science 
and standards development at NIST, as well as NIST's ability to 
attract top scientists.
     Dr. Copan. Thanks very much for that very important 
question. And indeed the condition of NIST facilities are 
challenging. Over 55 percent of NIST's facilities are 
considered in poor to critical condition per Department of 
Commerce standards. And so it does provide some significant 
challenges for us. The latest number that I had is that the 
deferred maintenance backlog is over $775 million.
     It's always much more attractive to build something new 
than to maintain what one has. The infrastructure, including 
plumbing, is very, very important, but the kind of plumbing 
that we really care about is our IT infrastructure and the 
ability of our systems to have controlled climate. Temperature 
control is vital for many of the experiments that NIST 
metrology laboratories carry out.
     It's a testament to the resilience and the committed-ness 
of the NIST people that they can work in sometimes challenging 
outdated environments. And, once again, when you make a visit 
to NIST Boulder or NIST Gaithersburg, whether it's at our 120th 
anniversary or at any time, you'll see the good, the bad, and 
the embarrassingly bad.
     And--but we have wonderful people who care about the 
mission of NIST. They are true public servants. They're 
scientists. They're Nobel Prize winners who are working in 
these conditions. And people want to come to work to NIST. We 
are delighted at the commitment of our NIST people, the very 
strong collaboration that we have with the academic sector, 
with the industrial sector, but it becomes an increased 
challenge for us.
     As you know, there have been some creative solutions 
proposed, the development, for example, of a Federal capital 
revolving fund has been one of the proposals that's been made. 
But having some certainty for the future in our ability to 
plan, we have 20-year plans for the NIST facilities that have 
been prepared, communicated, and this Committee has also 
received information about those plans. We look forward to 
sharing more with you about those.
     We're also looking creatively at the combination of 
maintenance with lease options as well for some of our 
facilities so that we can move more rapidly to have people 
cycle out of laboratories, begin the rebuilding, renovation 
process. It's one of my top priorities as the NIST Director to 
have our NIST people work in 21st-century facilities that we 
can be proud of and that enable the important work of NIST for 
the Nation.
     Chairwoman Stevens. Thank you, Dr. Copan. Thank you for 
that additional question.
     And before we bring the hearing to a close, we want to 
thank you again. I think it's clear you have a committee of 
NIST enthusiasts and people who are appreciative and attracted 
to your work and your leadership. Today's robust dialog covered 
the gamut, but it also speaks I think to the power and the 
impact of NIST.
     So, on behalf of all of us, you know, we're, one, so proud 
of you and so proud of the team and the dedicated scientists 
and the people who have devoted their careers to making this 
world a better place through proven expertise and love of 
standards and measurement and good technology.
     So, the record is going to remain open for 2 weeks for any 
additional statements from Members and for additional questions 
that the Committee may have of you, Dr. Copan.
     And with that, Dr. Copan, you are excused, and the hearing 
is adjourned.
     Dr. Copan. Thank you so much.
     [Whereupon, at 11:43 a.m., the Subcommittee was 
adjourned.]

                                Appendix

                              ----------                              

                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
